HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross and Blue Shield of Oklahoma, (A-07-01-00121)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross
and Blue Shield of Oklahoma," (A-07-01-00121)
July 17, 2001
Complete
Text of Report  is available in PDF format (1.39 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of our review was to determine the allowability of pension costs claimed
for Medicare reimbursement for Fiscal Years 1987 through 1999.  For Fiscal
Years 1987 through 1999, Blue Cross and Blue Shield of Oklahoma (Oklahoma) under
claimed allowable Medicare pension costs.  During this period, the allowable
Medicare pension costs were $926,822.  However, Oklahoma claimed pension costs
of $884,359 for Medicare reimbursement.  As a result, Oklahoma did not claim
$42,463 in allowable pension costs.  This under claim of pension costs was
the result of Oklahoma basing their pension cost calculations on incorrect asset
values, and not adjusting budgeted costs to actual costs for indirect Medicare
operations.  We recommended that Oklahoma revise its Final Administrative
Costs Proposals to reflect the remaining allowable pension costs.